SEPTEMBER 21, 2010
  REVIEW REPORT




                                                      OFFICE OF AUDITS




   REVIEW OF NASA’S TRACKING AND DATA RELAY
               SATELLITE SYSTEM



                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-10-023 (ASSIGNMENT NO. A-09-014-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

C.F.R.       Code of Federal Regulations
CM&O         Center Management and Operations
EVM          Earned Value Management
FY           Fiscal Year
GAO          Government Accountability Office
IDIQ         Indefinite-Delivery, Indefinite Quantity
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
SCaN         Space Communications and Navigation
TDRS         Tracking and Data Relay Satellite
TDRSS        Tracking and Data Relay Satellite System


                                                        REPORT NO. IG-10-023
SEPTEMBER 21, 2010



                                                                                                OVERVIEW

                REVIEW OF NASA’S TRACKING AND DATA RELAY
                            SATELLITE SYSTEM

                                                                                                  The Issue

   NASA’s Tracking and Data Relay Satellite System (TDRSS), also known as the Space
   Network, provides tracking, data, voice, and video services to the International Space
   Station; Space Shuttle; NASA’s space and Earth science missions; other Federal
   agencies, including the Missile Defense Agency and the National Science Foundation;
   and commercial users, such as The Boeing Company and Lockheed Martin Commercial
   Launch Services. The Space Communications and Navigation Office at NASA
   Headquarters manages the system.

   TDRSS is comprised of two segments – ground and space. The ground segment consists
   of stations in New Mexico, Guam, and Maryland that provide command and control
   services for the entire TDRSS network. The ground system also provides
   telecommunication services between low-Earth orbiting spacecraft and user control
   centers, thereby eliminating the need for many of the worldwide ground stations
   previously used for tracking such spacecraft.

   The space segment consists of eight Tracking and Data Relay Satellites (TDRS) in
   geosynchronous orbits 1 around Earth to provide global coverage. NASA launched the
   first of 10 satellites, TDRS-1, in 1983, and the newest satellite in the system, TDRS-10,
   in 2002. 2

   The existing TDRS fleet is aging and NASA predicts that, unless replacements are
   launched for the satellites nearing the end of their useful lives, there could be insufficient
   tracking capability to support NASA and other Government and non-Government
   missions as early as 2011. Accordingly, in December 2007, NASA entered into a
   $696 million contract with Boeing Satellite Systems (Boeing) to develop two new
   tracking satellites, TDRS K and L, 3 and to make associated modifications to the White
   Sands, New Mexico ground station. Expected launch dates for TDRS K and L are 2012

   1
       A geosynchronous orbit is one in which the satellite is always in the same position with respect to the
       rotating Earth. The satellite orbits at an elevation of approximately 35,790 km because that produces the
       time for one orbit equal to the period of rotation of the Earth (23 hours, 56 minutes, 4.09 seconds). By
       orbiting at the same rate, in the same direction as Earth, the satellite appears stationary (synchronous with
       respect to the rotation of the Earth).
   2
       TDRS-1 was decommissioned in 2009. The second TDRS satellite was lost in the 1986 Space Shuttle
       Challenger accident.
   3
       Following launch, TDRS K and L will be known as TDRS-11 and TDRS-12, respectively.



REPORT NO. IG-10-023
                                                                                                      OVERVIEW

     and 2013, respectively. In addition, in October 2003, NASA awarded a $185.2 million
     core contract with a maximum value of $600 million for task orders to Honeywell
     Technologies Solutions, Inc. (Honeywell) for continuous operations and monitoring of
     the space communications network and for the detection, reporting, isolating, and
     resolution of anomalies in network systems, interfaces, and services.

     We initiated this audit to determine whether NASA has effectively managed the TDRSS
     Program to accomplish its technical objectives while meeting established milestones and
     controlling costs. Specifically, we examined whether NASA had taken steps to ensure
     that TDRS K and L were on schedule, within budget, and met technical requirements and
     that acquisition risks were identified and sufficiently mitigated. We also examined
     whether NASA performed adequate contract administration and whether other users of
     TDRSS properly reimbursed NASA for services provided to them and shared in the costs
     of system upgrades.

     Prior to initiating this audit, we received an allegation that Boeing had submitted a low
     bid in order to obtain the TDRS contract and subsequently had increased the Project’s
     cost through contract modifications. As part of this audit, we assessed the merit of this
     allegation. Details of the audit’s scope and methodology are in Appendix A.

     Results

     Development of TDRS K and L is on schedule and meeting its planned budget. We
     found that NASA has managed the Project within cost, schedule, and performance
     requirements and Project managers implemented risk and earned value management
     (EVM) processes 4 to monitor and mitigate programmatic risks associated with TDRSS
     development efforts. NASA also effectively administered the TDRSS development and
     support service contracts. However, we found that NASA has not revised the
     reimbursable rates it charges TDRSS customers since 2006 and that NASA officials did
     not know what factors were used to formulate the 2006 rates. Accordingly, NASA does
     not know whether the rates it has been charging customers during the past 4 years
     reflected current operating costs. We also found that internal controls for continuity of
     operations were not established, which led to the possible loss to NASA of reimbursable
     dollars.

     Project Management Implemented Effective Processes. We found that NASA
     managed the TDRS K and L Project within established cost and schedule milestones and
     met overall technical objectives. Project managers identified and mitigated risks, thereby
     reducing the potential for project performance shortfalls. In addition, management used a
     formally validated EVM system to identify cost and schedule trends and variances, which
     allowed them to implement corrective actions in a timely manner.

     4
         Risk management involves identifying potential risks and developing management decisions designed to
         avoid or mitigate those risks. Earned value management is an integrated management control system for
         assessing and quantifying what a contractor or field activity is achieving with program dollars.



ii                                                                                       REPORT NO. IG-10-023
OVERVIEW

   NASA Appropriately Administered and Monitored Contracts. We found that the
   Space Network Office and the TDRS Project Office appropriately awarded, administered,
   and monitored performance of the contracts with Honeywell and Boeing, respectively.
   For the Honeywell contract, we found that NASA followed appropriate procedures for
   awarding and administering the contract and monitored contractor performance in
   accordance with Federal and NASA Acquisition Regulations. For example, NASA
   conducted award fee evaluations as defined in the award fee plan and disbursed award
   fees in accordance with contract terms and conditions. 5 For the Boeing contract, TDRS
   Project personnel and on-site representatives at the contractor facility performed the
   oversight required to manage the contract appropriately. In addition, communication
   between NASA and the contractor was sufficient to mitigate acquisition risks. Finally,
   we found no evidence substantiating the allegation that Boeing submitted a low bid in
   order to win the contract and then increased the contract cost through modifications. We
   found that NASA selected Boeing following an open competition in which NASA
   received two proposals.

   The only modifications affecting the scope of the Boeing contract occurred in June 2010
   when NASA changed contract requirements and increased the contract costs by directing
   Boeing to procure and test spare parts and accommodate contingency operations tests.
   Although the modifications did increase the contract cost, the changes were initiated by
   NASA and were not initiated by Boeing.

   NASA Needs to Review Its Current Reimbursable Rates to Ensure They Are
   Appropriate and Reasonable. We found that NASA has not revised the reimbursable
   rates it charges TDRSS customers since 2006, and that current NASA Program officials
   did not know what factors were used to formulate the 2006 rates. Therefore, NASA does
   not know, and we could not determine, whether the rates NASA was charging its
   customers at the time of our audit were appropriate or reasonable. In addition, NASA has
   failed to update the Code of Federal Regulations (C.F.R.) 6 to reflect current rates and
   other current policies and practices.

   We found that these issues were attributable in part to repeated reorganizations in the
   TDRSS Program, which resulted in a loss of institutional knowledge. From the 1980s
   until the mid 1990s, TDRSS operated as a distinct directorate at NASA Headquarters. In
   1996, NASA transferred responsibility for TDRSS to Johnson Space Center. In 2001,
   NASA transferred responsibility for TDRSS back to NASA Headquarters under what is
   now the Space Operations Mission Directorate. These repeated transfers of responsibility
   and personnel caused a loss of institutional knowledge to the degree that present Program
   personnel acknowledged that they were unaware that the C.F.R. contained provisions
   relating to TDRSS and that they lacked the expertise to update the TDRSS reimbursable
   rates.


   5
       We reviewed award fee documentation and processes but did not independently evaluate NASA’s
       rationale for awards made to the contractor.
   6
       Title 14 C.F.R. Part 1215, “Tracking and Data Relay Satellite System (TDRSS).”



REPORT NO. IG-10-023                                                                                 iii
                                                                                        OVERVIEW

     Lack of Internal Controls and Inaccurate Advice Led to Collection Issues and Loss
     of Revenue. We found a difference in the way that Program financial managers bill
     classified and nonclassified users, with one manager charging nonclassified users for
     expenses that were not charged to classified users. We also found that the Networks
     Integration Management Office, which is responsible for collecting fees from
     nonclassified users, did not have an internal control procedure in place to provide for
     continuity of operations. Consequently, when the resource analyst responsible for
     handling nonclassified reimbursable payments was absent from the office for an extended
     period of time, customers were not billed in a timely manner, resulting in a loss of funds
     to NASA. For example, in 2009 NASA wrote off $385,000 that had not been timely
     billed to a customer who later became insolvent. In addition, $58,700 was returned to
     customers based on advice by the Regional Finance Office that the funds had expired.
     However, this advice was not accurate, and $27,200 of this amount should have remained
     with NASA.

     Management Action

     We recommended that the Space Communications and Navigation Office assess and
     update the reimbursable rates NASA charges other TDRSS users and ensure that current
     rates as well as other current policies and processes are reflected in the Code of Federal
     Regulations. In conducting this assessment, the Office should ensure that the factors
     constituting the reimbursable rate formula are documented and consistently applied. In
     addition, to ensure user reimbursements to NASA are accurate and appropriately tracked,
     the Networks Integration Management Office should enhance its internal control
     procedures to provide for continuity of operations.

     In response to our August 19, 2010, draft of this report, the Associate Administrator for
     Space Operations concurred with our recommendations and stated that the Space
     Communications and Navigation Office will update the algorithm used to calculate
     reimbursable rates to ensure it produces rates that are reasonable. In addition, the Space
     Communications and Navigation Office will review Title 14 C.F.R. Part 1215 to
     determine whether the regulation is still needed and, if so, ensure that it reflects the
     current TDRSS operating procedures and rates. With respect to our recommendation
     regarding ensuring continuity of operations, the Associate Administrator noted that the
     lack of timely billing we identified was related to an employee’s unexpected medical
     absence and stated that the Networks Integration Management Office has since increased
     the size of its staff and will document the step-by-step process for handling reimbursable
     accounts so that any future unexpected employee absence will not cause a similar
     disruption. Finally, the Associate Administrator indicated that a common process is
     being developed and will be employed for both classified and nonclassified projects. The
     full text of NASA’s comments is reprinted in Appendix C.

     We consider the Associate Administrator’s proposed actions to be responsive to our
     recommendations. Therefore, the recommendations are resolved and will be closed upon
     verification that management has completed the corrective actions.


iv                                                                          REPORT NO. IG-10-023
SEPTEMBER 21, 2010




                                                         CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 3

   RESULTS
      TDRS Project Management Implemented Effective
         Management Processes ______________________________ 4
      NASA Appropriately Administered TDRSS Program Contracts ___ 8
      NASA Needs to Review Its Current Reimbursable Rates to
         Ensure They Are Appropriate and Reasonable ___________ 12
      Lack of Internal Controls Led to Collection Issues and
         Loss of Revenue __________________________________ 16

   APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls ____________________________ 20
      Prior Coverage ______________________________________ 20

   APPENDIX B
      Protests of Support Service Contract Award _______________ 22

   APPENDIX C
      Management Comments ______________________________ 24

   APPENDIX D
      Report Distribution ___________________________________ 26




REPORT NO. IG-10-023
SEPTEMBER 21, 2010



                                                                             INTRODUCTION


Background

   NASA built the Tracking and Data Relay Satellite System (TDRSS), also known as the
   Space Network, to provide tracking, data, voice, and video services to the International
   Space Station; Space Shuttle; NASA’s space and Earth science missions; other Federal
   agencies, including the Department of Defense and the National Science Foundation; and
   commercial users such as The Boeing Company and Lockheed Martin Commercial
   Launch Services. NASA launched the first TDRSS satellite – TDRS-1 – in 1983, and the
   most recent – TDRS-10 – in December 2002. The launch dates for each TDRSS satellite
   are set forth in Table 1.

                          Table 1. TDRSS Satellites by Launch Date
         Spacecraft Name                                                        Spacecraft Name
          Before Launch                          Launch Date                     After Launch
             TDRS-A                  April 4, 1983                                  TDRS-1a
             TDRS-B                  January 28, 1986
                                      (lost in the Challenger accident)
             TDRS-C                  September 29, 1988                             TDRS-3b
             TDRS-D                  March 13, 1989                                 TDRS-4
             TDRS-E                  August 2, 1991                                 TDRS-5
             TDRS-F                  January 13, 1993                               TDRS-6
             TDRS-G                  July 13, 1995                                  TDRS-7
             TDRS-H                  June 30, 2000                                  TDRS-8
             TDRS-I                  March 8, 2002                                  TDRS-9b
             TDRS-J                  December 4, 2002                               TDRS-10
     a
      TDRS-1 was decommissioned on October 28, 2009 and end of mission activities were completed in
     June 2010.
     b
       TDRS-3 and TDRS-9 are in on-orbit storage.

   Over the last 25 years, TDRSS has delivered pictures, television, and voice data to the
   scientific community and the general public, including data from more than 100 Space
   Shuttle and International Space Station missions and the Hubble Space Telescope. A
   principal advantage of TDRSS is that it consolidates communications services that had
   previously been provided by multiple worldwide ground stations.

   TDRSS is comprised of ground and space segments. The ground segment consists of
   stations in Guam, Maryland, and New Mexico that provide command and control services
   for the entire TDRSS network. The space segment consists of eight satellites positioned




REPORT NO. IG-10-023                                                                                  1
                                                                                                      INTRODUCTION

    in geosynchronous 7 orbits around Earth to provide global coverage. Figure 1 depicts the
    relative position of the satellites and the ground stations.

    Figure 1: Tracking and Data Relay Satellites and Ground Stations




    Source: NASA TDRSS System Description

    TDRSS satellites were designed for a total life expectancy of 15 years, including 4 years
    of on-orbit storage. However, the satellites have generally outlasted design expectations.
    For example, TDRS-1 was in orbit for 26 years before failing. The two next-oldest
    satellites, TDRS-3 and TDRS-4, have been in orbit for approximately 22 and 23 years,
    respectively. NASA has predicted that unless replacements are launched for the satellites
    nearing the end of their useful lives, there could be insufficient capacity to support NASA
    missions or the needs of other users as early as 2011. Therefore, in 2007 NASA began
    the acquisition process to build and deploy TDRS K and L.

    In order to address current and future TDRSS requirements, NASA entered into contracts
    with Honeywell Technologies Solutions, Inc. (Honeywell) and Boeing Satellite Systems
    (Boeing). The Honeywell contract, entered into in October 2003, is a cost-plus-award-fee
    contract 8 for maintenance and operation of TDRSS ground operations. The contract
    includes a core requirement for ground and space network operations, engineering and
    maintenance, and network support functions, and indefinite-delivery, indefinite-quantity
    (IDIQ) requirements 9 for supporting engineering operations. At contract award, the value
    of the core requirement was $185.2 million, with a maximum of $600 million for the
    issuance of IDIQ task orders. In April 2010, NASA extended the contract through
    7
        A geosynchronous orbit is one in which the satellite is always in the same position with respect to the
        rotating Earth. The satellite orbits at an elevation of approximately 35,790 km because that produces the
        time for one orbit equal to the period of rotation of the Earth (23 hours, 56 minutes, 4.09 seconds). By
        orbiting at the same rate, in the same direction as Earth, the satellite appears stationary (synchronous with
        respect to the rotation of the Earth).
    8
        A cost-plus-award-fee contract includes a base fee that NASA and the contractor establish prior to
        contract award and an award amount that the contractor can earn in whole or in part based on its contract
        performance. The award amount is intended to motivate the contractor in areas such as quality,
        timeliness, technical ingenuity, and cost-effective management.
    9
        An indefinite-delivery contract is a type in which the time of delivery is unspecified in the original
        contract but established during performance. An indefinite-quantity contract provides for an indefinite
        quantity, within stated maximum or minimum limits, of specific supplies or services to be furnished
        during a fixed period, with deliveries scheduled by placing orders with the contractor.



2                                                                                            REPORT NO. IG-10-023
INTRODUCTION

   October 8, 2010, with an option for an additional 6-month extension to April 8, 2011.
   The current contract value, including the extension to October 2010, is $306.4 million for
   the core effort and a maximum of $824 million for the IDIQ portion. (See Appendix B.)

   The contract with Boeing, entered into in December 2007, is a $696.6 million fixed-price-
   incentive-fee contract for the development and delivery of two new satellites, TDRS K
   and L. Also included in the contract is a requirement for Boeing to modify the White
   Sands ground station to ensure that these two new satellites will be fully compatible with
   and capable of functioning as part of TDRSS. The planned launch dates for TDRS K and
   L are 2012 and 2013, respectively.

   NASA has a contingency plan in place to meet the satellite capacity needs of both NASA
   and its customers until the new satellites become operational. However, according to the
   TDRS Project Manager, once TDRS K and L become operational, TDRSS will have
   sufficient capacity to meet NASA and other customers’ requirements through
   approximately 2016, as long as no existing satellites are decommissioned. Also, the
   Boeing contract contains an option for the development and delivery of two additional
   satellites, TDRS M and N.


Objectives

   The overall objective of our audit was to determine whether NASA was managing the
   TDRS K and L Project in order to accomplish its technological objectives while meeting
   established cost and schedule milestones. Specifically, we examined whether

      •   acquisition risks were identified and sufficiently mitigated;

      •   NASA adequately administered the TDRS K and L development and support
          services contracts; and

      •   non-NASA users of TDRSS properly reimbursed NASA for the services provided
          to them and shared in the costs of system upgrades.

   Prior to beginning the audit, the Office of Inspector General (OIG) received an allegation
   that Boeing had bid low on the TDRS K and L contract in order to win the contract and
   then subsequently requested waivers to technical requirements that increased NASA’s
   cost. To assess the merits of this allegation, we reviewed the original competition and
   examined source selection information and contract modifications. See Appendix A for
   details of the audit’s scope and methodology, our review of internal controls, and prior
   audit coverage.




REPORT NO. IG-10-023                                                                            3
                                                                                                  RESULTS



                                                        TDRS PROJECT MANAGEMENT
                                                           IMPLEMENTED EFFECTIVE
                                                           MANAGEMENT PROCESSES

               Development of TDRS K and L is on schedule and meeting its planned budget. We
               found that NASA implemented sound project management principles to ensure that
               the Project met schedule milestones and technical requirements and that the TDRS
               Project Office executed a project plan and used sound risk management and earned
               value management (EVM) processes. Project planning and scheduling met budget
               and technical milestones because NASA and Boeing conducted appropriate oversight
               and communicated effectively throughout the development phases. In addition, use
               of risk management and EVM processes facilitated early identification of trends and
               variances, thus allowing sufficient time to implement corrective actions. As a result,
               the planned launch schedule is consistent with the Project Plan, and the Project has
               sufficient reserves to meet planned launch dates and ground segment commitments,
               such as tracking services provided by a ground terminal.


TDRS Project Requirements Were Effectively Executed

    As of May 2010, the TDRS K and L Project was meeting technical requirements on
    schedule and within budget. The TDRS Project Office effectively executed the “Tracking
    and Data Relay Satellite K Program, Code 454, Project Plan,” 454 KP SYS-PLAN-002,
    March 12, 2009 (Project Plan).

    The Project Plan, outlines the technical, schedule, cost control plans, and risk
    management plans for both TDRS K and L, and provides the scope, implementation
    approach, project operational environment, and the baseline commitments of the TDRSS
    Program and the TDRS K and L Project, in accordance with NASA Procedural
    Requirements (NPR) 7120.5D, “NASA Space Flight Program and Project Management
    Requirements,” March 6, 2007. The Project Plan provides detailed requirements for
    Project documents to include the TDRSS K and L Program Commitment Agreement
    (Commitment Agreement), 10 which establishes the TDRS K and L launch delivery dates
    of December 2012 and December 2013, respectively. NASA awarded Boeing the
    TDRS Project contract on December 28, 2007, for the design, development, and launch
    of TDRS K and L with launch dates of April 1, 2012, and February 9, 2013, respectively.
    By contracting for launch dates that are approximately 8 months earlier than those in the




    10
         The Commitment Agreement, required by NPR 7120.8, “NASA Research and Technology Program and
         Project Management Requirements,” February 5, 2008, identifies key schedule milestones for the
         program and for each project in the program.



4                                                                                  REPORT NO. IG-10-023
RESULTS

   Commitment Agreement, NASA built in schedule reserves. 11 Monthly and quarterly
   status reports from the Project Office and Boeing indicated that the project was
   progressing in line with the Commitment Agreement.

   Project planning and scheduling were successful because of effective communication
   between NASA and Boeing. NPR 7120.5D, Appendix F.3.3.4.a, “Acquisition Plan,”
   requires project management to develop a surveillance plan that enables the Government
   to determine whether the contractor’s program and processes are functioning in
   accordance with the terms of the contract. To satisfy the requirement, management
   developed the TDRS K Surveillance Plan, effective April 16, 2007. The NASA Senior
   Planning Specialist and Boeing Program Integrator met monthly to monitor schedule and
   technical issues.

   We also found that the Project has maintained sufficient schedule reserves to meet
   contractual launch dates and ground segment upgrades. The Project Office and Boeing
   have issued separate monthly and quarterly status reports indicating that since
   November 2008, the Project was maintaining 4 months of launch schedule reserve. As of
   August 2009, the Project was carrying 87 days of reserve, putting the Project above the
   Goddard Guideline of 83.7 days. 12 The commitment date for the White Sands Complex
   upgrade for TDRSS requirements is no later than 8 months prior to launch of TDRS K.
   As of September 2009, the White Sands Complex modification schedule maintained
   2 months of schedule reserve.


Management Tools Were Implemented Effectively

   NASA policy requires that specific project management tools be implemented for all
   Agency programs, projects, and contracts. Specifically, NASA policy requires use of risk
   management and earned value management (EVM) to help ensure project success. Risk
   management involves identifying potential risks and developing management decisions
   designed to avoid or mitigate those risks. When properly executed, risk management
   reduces the potential for cost overruns, schedule delays, and noncompliance with
   technical and safety requirements. EVM is an integrated management control system for
   assessing and quantifying what a contractor or field activity is achieving with program
   dollars. Successful use of EVM allows project management to measure cost and progress
   against schedule in the management plan, identify performance trends and variances from


   11
        NASA Schedule Management Handbook, October 2, 2006, Section 5.2.61, “Schedule Management
        Reserve,” states that schedule reserve is “used for future situations that are impossible to predict. It is a
        separately planned quantity of time . . . intended to reduce the impact of missing overall schedule
        objectives.”
   12
        Goddard Procedural Requirement 7120.7, “Schedule Margins and Budget Reserves,” states that there
        should be 1 month of funded schedule margin per year from confirmation to the beginning of observatory
        integration and test; from the start of integration and test to shipment to the launch site (or planned
        storage) there should be 2 months of funded schedule margin per year; and from delivery to the launch
        site to launch should be 1 week of funded schedule margin per month.



REPORT NO. IG-10-023                                                                                                    5
                                                                                         RESULTS

    the management plan, and enables early decision making in time to apply effective
    corrective actions to minimize cost overruns.

    Risk Management. Both NPR 8000.4A, “Agency Risk Management Procedural
    Requirements,” December 16, 2008 (Risk Management Requirements), and the
    “Tracking and Data Relay Satellite K Program Code 454 Continuous Risk Management
    Plan,” January 5, 2008 (Risk Management Plan), require project management to employ
    continuous risk management as a decision-making tool. The Risk Management
    Requirements document identifies six requirements of effective risk management:
    identification, analysis, planning, tracking, control, and communication of the risk. The
    Risk Management Plan requires the participation of all project team members, including
    civil service and contract personnel, and provides metrics to assess program activities
    such as the number of open and closed risks.

    We determined that Project management effectively used the Risk Management Plan
    metrics for measuring and quantifying risks. For example, as of October 13, 2009,
    Boeing identified and managed 189 unique project risks. All 189 risks had an identified
    owner responsible for overseeing implementation of the agreed-to risk disposition. For
    all risks, Project management provided a documented process for identifying, analyzing,
    planning, tracking, controlling, and communicating the risks. We interviewed 38 Project
    staff, all of whom told us that they believed this risk reporting system captured all
    identified risks and provided a sufficient mechanism for Project staff to report risks.
    During our audit, we did not identify any additional risks that should have been but were
    not addressed.

    We tracked each of the risks through the risk identification, reporting, and mitigation
    process and determined that adequate controls were in place to address all 189 risks.
    Specifically, a core group of approximately 11 Project staff forms the Project’s Risk
    Management Board. The Board meets regularly to review risk status and the necessity for
    action. In addition, the Project Manager is responsible for elevating major risks to the
    Goddard Center Management Council and the Space Communications and Navigation
    (SCaN) Office for action. From January 2008 through December 2009, Project
    management elevated and subsequently closed three major risks through the Goddard
    Center Management Council and SCaN. For example, Project management identified a
    small supplier’s responsibility for providing a large quantity of low-noise amplifiers,
    reference generators, and frequency converters as having the potential to result in late
    deliveries and design, workmanship, and test issues that could affect the Project schedule.
    To mitigate this risk, Project management developed and implemented a 12-step risk
    mitigation plan that enabled them to make a determination that the likelihood of late
    deliveries or design, workmanship, or test issues was low. Management also identified
    and implemented mitigation strategies for procurement risks, by anticipating estimating
    and inflation errors, and design implementation risks in regard to structural changes that
    may become evident between TDRS K and L and previous TDRS.

    Earned Value Management. Pursuant to applicable regulations, Boeing was required to
    demonstrate that the Government certified its EVM systems. Boeing provided TDRS


6                                                                          REPORT NO. IG-10-023
RESULTS

   Project management a signed agreement, dated February 3, 2009, documenting that their
   EVM system is Government certified. The Honeywell contract, as an operations and
   maintenance contract, is not required to use EVM.

   We found that Project management implemented EVM in accordance with the Project
   Plan and NASA requirements. Effective use of EVM enabled Project management to
   identify performance trends and variances from the management plan in a timely manner
   and use the information to make informed decisions and implement corrective action.
   For example, in the months prior to a March 2009 design review, EVM data indicated
   that the Project had overrun cost projections by 12 percent and that only 92 percent of the
   scheduled work had been completed. Project management analyzed the data and
   determined that the cost overrun resulted from the contractor underestimating engineering
   labor hours required to complete tasks, and the apparent schedule delay was due to an
   input error on the master schedule. Project management provided more realistic
   engineering labor hours and properly adjusted inputs to the master schedule, thus
   preventing future Project cost overruns and mitigating impact to the launch schedule.




REPORT NO. IG-10-023                                                                             7
                                                                                                       RESULTS



                                                                     NASA APPROPRIATELY
                                                                     ADMINISTERED TDRSS
                                                                      PROGRAM CONTRACTS

               The Space Network Office and TDRS Project Office appropriately awarded,
               administered, and monitored development and support service contracts with
               Honeywell and Boeing, respectively. The contracts complied with Federal and
               NASA acquisition regulations, and contained clearly defined technical requirements.
               Program management provided sufficient oversight of contract implementation, and
               communications between NASA and the contractors mitigated acquisition risks.


Management of Contract with Honeywell Followed Contracting
 Procedures

    In October 2003, NASA awarded a 5-year cost-plus-award-fee contract that includes
    provisions for indefinite-delivery, indefinite-quantity tasks (IDIQ tasks) to Honeywell for
    continuous operations and monitoring of the space communications network and
    providing and supporting engineering operations. When NASA awarded the contract, its
    estimated value for the core effort was $185.2 million, with a maximum value of
    $600 million for the IDIQ tasks. That value subsequently increased to $306.4 million for
    the core effort and $824 million for IDIQ tasks, primarily as a result of multiple bid
    protests by Honeywell following award of the follow-on contract to ITT Corporation on
    October 10, 2008, which resulted in a two-year extension of Honeywell’s contract.
    Honeywell submitted four separate protests to the Government Accountability Office
    (GAO) and one to NASA, and ITT Corporation submitted one protest to NASA. (See
    Appendix B for specific details about the protests.) The current period of performance
    extends the contract until October 8, 2010, and includes an option for an additional
    6-month period (through April 8, 2011) if necessary, pending the outcome of
    Honeywell’s protest.

    In examining the 2003 contract, we found that management and contracting personnel
    followed contracting procedures for awarding and administering the Honeywell contract
    and for monitoring Honeywell’s performance, in accordance with the Federal Acquisition
    Regulation (FAR) and the NASA FAR Supplement guidelines.

    The TDRSS Performance Evaluation Board 13 evaluates potential award fees every
    6 months as defined in the award fee plan. We found that disbursements of award fees
    were made in accordance with contract terms and conditions.

    13
         For an award-fee contract, the Performance Evaluation Board, consisting of a minimum of five voting
         members that includes the Board chairman, evaluates contractor performance and determines the amount
         of award fee the contractor will earn. The five members include one technical representative from
         another technical organization, one senior procurement official, and two other voting members.



8                                                                                       REPORT NO. IG-10-023
RESULTS

   Since the contract’s inception, the contractor has received award fee ratings in the “very
   good” 14 range, with the exception of a “good” rating for the October 9, 2003, to April 8,
   2004 period, and a “satisfactory” rating for the October 9, 2008, to July 8, 2009, period.
   According to NASA, factors that affected the satisfactory rating 15 included Honeywell’s
   inability to retain critical skills and poor corporate decisions leading to unprecedented
   losses of highly experienced personnel. Additionally, performance on crucial tasks was
   unacceptable and Honeywell’s difficulty in completing required deliverables resulted in
   schedule delays, cost increases, and an inability to meet external customer needs.
   Honeywell established a recovery plan and made significant progress in addressing
   NASA’s concerns. Through June 2010, NASA made 12 award fee ratings to Honeywell
   representing approximately 85 percent of the available fee pool for these periods
   ($14,066,260 of the potential $16,467,816).


Management of Contract with Boeing Was Appropriate

   In December 2007, NASA awarded a fixed-price-incentive-fee contract to Boeing for the
   development and delivery of TDRS K and L. The target price 16 of the base contract,
   which includes the development and delivery of TDRS K and L and modifications to the
   White Sands ground station, is $696.6 million with a ceiling price 17 of $772.4 million.
   The planned launch dates for TDRS K and L are 2012 and 2013, respectively; however,
   the contract includes a schedule incentive of up to $10 million if TDRS K is launched
   prior to December 2012. The contract also includes options for two additional spacecraft,
   TDRS M and N. If all options are exercised, the potential contract value is $1.2 billion
   with an 18-year period of performance.

   This type of contract is used when supplies or services can be acquired at lower costs and,
   in certain instances, with improved delivery or technical performance by coupling the
   amount of profit to the contractor’s performance. Furthermore, because TDRS K and L
   are not significantly different from previous satellites, NASA officials said Boeing’s
   performance in developing and delivering TDRS H, I, and J made it advantageous to use
   a contract vehicle under which Boeing assumed responsibility for costs and an
   appropriate share of the risk.

   Prior to beginning our audit, the OIG received an allegation that Boeing had submitted a
   low bid in order to win the contract and thereafter submitted waiver requests for technical
   requirements that increased NASA’s cost. To evaluate the merits of this allegation, we

   14
        NASA uses adjectival ratings – excellent, very good, good, satisfactory, poor/unsatisfactory – to rate
        performance under award-fee contracts.
   15
        We did not independently evaluate NASA’s rationale for making this determination.
   16
        A fixed-price incentive contract includes a target price comprising a target cost, a target profit, a price
        ceiling, and a profit adjustment formula, which NASA and the contractor negotiate and establish prior to
        contract award. The target price represents the contract value at award.
   17
        The price ceiling is the maximum that may be paid to the contractor, except for any adjustment under
        other contract clauses.



REPORT NO. IG-10-023                                                                                                  9
                                                                                                            RESULTS

     reviewed the original competition method and examined source selection information and
     subsequent contract modifications.

     We found that NASA awarded Boeing the contract following a full and open competition
     in which two proposals were received. NASA evaluated both proposals in accordance
     with source selection procedures described in FAR Part 15 and the NASA FAR
     Supplement Part 1815. Boeing’s proposal received a higher point score because of its
     technical approach, and had a lower overall cost to the Government following a cost-
     realism analysis. 18 In addition, Boeing’s proposal took no exceptions to the contract
     terms and conditions or technical requirements.

     We examined whether Boeing’s proposal addressed all contract requirements and
     whether NASA granted change orders for requirements outside the original proposal.
     Boeing submitted 21 waiver requests to the Project Office following contract award (6
     were later withdrawn by Boeing). According to Project officials, Boeing submitted these
     waivers following an integrated baseline review during which Project officials discovered
     that Boeing had failed to include several items such as component random vibration
     testing for bus units and a spacecraft modal test in its baseline schedule. Project
     management evaluated each request and its supporting documentation to determine
     whether it should grant the waiver. Of the 15 waivers evaluated, NASA approved 13 and
     rejected 2.

     The approved waivers did not alleviate Boeing from performing any of the technical
     requirements and did not affect the price of the contract. For example,

            •   On February 23, 2009, Boeing submitted a waiver request related to the number of
                fasteners to be tested, use of current in-stock fasteners, and fasteners on existing
                and new ground support equipment. The Project’s mechanical and structural
                engineer reviewed the request and determined that approving the waiver would
                not increase technical risk. However, NASA reserved the right to audit the
                fastener inventory and require additional testing. In addition, Boeing revamped its
                overall system for procurement of the fasteners to ensure there would be no
                additional risks because of waiver approvals.

            •   On June 8, 2009, Boeing submitted a waiver requesting a deviation from the
                military standard definition of “Maximum Expected Operating Pressure.” 19 The
                Project’s propulsion subsystem engineer and contracting officer granted the
                waiver after determining that Boeing had demonstrated that the workmanship of
                the manifold and component fabrications were proof-pressure tested above the


     18
          Cost-realism analysis is the process of independently reviewing and evaluating specific elements of each
          offeror's proposed cost estimate to determine whether the estimated proposed cost elements are realistic
          for the work to be performed; reflect a clear understanding of the requirements; and are consistent with
          the unique methods of performance and materials described in the offeror's technical proposal.
     19
          Maximum Expected Operating Pressure refers to the wall strength of a pressurized cylinder, such as a
          pipeline or storage tank, and how much pressure the walls could safely hold before rupturing.



10                                                                                          REPORT NO. IG-10-023
RESULTS

               worst-case surge pressure and that waiving the requirement would eliminate the
               risk of a schedule delay.

   In June 2010, NASA increased the contract value to $716.8 million after directing Boeing
   to procure and test ground spare parts and provide dual central processing unit redundant
   cross-strapping capability for the spacecraft emulators 20 to accommodate contingency
   operations tests. NASA initiated the contract modification to incorporate the ground
   spares to avoid future difficulties associated with purchasing spares with the same
   configuration as the production units, take advantage of efficiencies of a bulk buy
   purchase, realize efficiencies of testing units/items and spares at the same time, and
   minimize disruption to White Sands operations. A review board that assessed risk
   mitigation measures following a spacecraft emulator anomaly aboard the TDRS-9
   spacecraft recommended the modification for the spacecraft emulators. Thus, contract
   modifications were not the result of Boeing attempting to increase contract costs but
   rather NASA’s decision to incorporate these changes.

   Accordingly, we found no evidence to support the allegation that Boeing “low bid” the
   contract in order to win the award and subsequently increased the cost through contract
   modifications.

   The contract includes an incentive fee tied to Boeing’s performance, completion of
   project milestones, and cost performance as evidenced in monthly and quarterly financial
   management reports. Using the information in these reports, NASA will determine the
   final amount of incentive fee earned by the contractor in accordance with the profit
   adjustment formula. 21 As of June 1, 2010, Boeing had received $28 million of the
   $78.7 million target fee paid upon successful completion of performance milestones as
   outlined in the contract.

   NASA has contracted with Aerospace Corporation, a federally funded research and
   development center, to ensure the accuracy of the monthly and quarterly status reports.
   Aerospace Corporation employs technical personnel to oversee implementation of the
   contract requirements on-site at Boeing and provide NASA daily reports concerning
   project status. The NASA and Boeing teams conduct weekly schedule assessments to
   ensure Project management understands the impact of schedule variances to the Project.
   Additionally, the lead Goddard Project scheduler travels to the Boeing facility to
   participate in all relevant schedule working groups and meetings.




   20
        The purpose of spacecraft emulators are to test flight software and provide operations training and
        procedure checkout.
   21
        The profit adjustment formula is used to calculate the final profit earned by the contractor: when the final
        cost is less than the target cost, the final profit is greater than the target profit; conversely, when final cost
        is more than the target cost, the final profit is less than the target profit and could result in a net loss.



REPORT NO. IG-10-023                                                                                                         11
                                                                                            RESULTS



                                                    NASA NEEDS TO REVIEW ITS
                                                       CURRENT REIMBURSABLE
                                                    RATES TO ENSURE THEY ARE
                                                             APPROPRIATE AND
                                                                 REASONABLE

            NASA has not recalculated the TDRSS reimbursable rates since 2006. As a result,
            current NASA Program officials do not know whether the factors used to formulate
            the 2006 rates are still valid and, consequently, do not know whether the rates NASA
            is charging its customers are appropriate or reasonable. In addition, NASA has failed
            to update the Code of Federal Regulations to reflect current rates and other current
            policy and practice.


NASA Does Not Know Whether the Rates It is Charging
 Customers are Reasonable

     TDRSS represents an investment by the U.S. Government of more than $5 billion since
     inception. According to 14 C.F.R. Subpart 1215.1, “Tracking and Data Relay Satellite
     System Use and Reimbursement Policy for Non-U.S. Government Users,” NASA’s
     objective is to operate TDRSS as efficiently as possible to the mutual benefit of all users.
     NASA structured its reimbursement policy “to purposely influence users to operate with
     TDRSS in the most efficient and orderly manner possible.” For example, to prevent
     excessive use by any one user, the policy provides that users will be charged by the
     minute. In addition, according to the C.F.R., “a reasonable charge” should be made to
     TDRSS users. Accordingly, NASA has established user rates for various TDRSS
     services.

     NASA Has Not Revised Rates. NASA has not revised TDRSS service rates since 2006.
     Moreover, the rates published in the current C.F.R. date to 1997. According to Program
     management personnel, they have not revised the rates since 2006 because they assumed
     another office was responsible for this task and because they did not possess the
     knowledge necessary to do so. In addition, NASA Program officials said they do not
     know what factors were used to formulate the 2006 rates. Accordingly, they do not
     know, and we were not able to determine, whether the rates NASA was charging reflected
     operating costs. The C.F.R. rates and the reimbursable service rates charged by NASA in
     2009 are provided in Table 2.




12                                                                            REPORT NO. IG-10-023
RESULTS

        Table 2. Commercial and Noncommercial Rates as Published in 14 CFR Part 1215
                       Compared with Rates Charged by NASA in 2009
                                  Commercial Rate               Noncommercial Rate
                            Published in    Charged by      Published in    Charged by
      Service Category         C.F.R.      NASA in 2009        C.F.R.      NASA in 2009
   Single Access                    $180               $119               $184                $131
   Multiple Access Forward           $39                $29                $42                 $29
   Multiple Access Return            $13                $14                $13                 $14
   Sources: C.F.R. Part 1215 Appendix A provides the C.F.R. rates, and the Space Operations Mission
   Directorate provided the rates charged by NASA in 2009.

   In October 2009, NASA directed a contractor staff member who had previously worked
   with the reimbursable formulas as a NASA employee to determine how the reimbursable
   rates were calculated in order to develop new rates with factors that reflect the current
   operating environment. Although the contractor employee was able to locate a logic
   document relating to the 2006 formula, the document did not reflect the cost factors
   considered or the actual formula. NASA told us it plans to develop a new formula that it
   will apply for FY 2011 rates.

   Since NASA has not updated the rate in more than 4 years, there is no assurance that the
   charges are appropriate or reasonable, as required by C.F.R. §§ 1215.100, which states
   that

           this reimbursement policy has been established to purposely influence users to operate
           with TDRSS in the most efficient and orderly manner possible. Additionally, the
           reimbursement policy is designed to comply with the [Office of Management and Budget]
           Circular A-25 on User Charges, dated September 23, 1959, which requires that a
           reasonable charge [emphasis added] should be made to each identifiable recipient for a
           measurable unit or amount of Government service or property from which a special
           benefit is derived.

   NASA Lost Institutional Knowledge During Multiple Reorganizations. During the
   1980s and most of the 1990s, TDRSS operated as its own directorate from NASA
   Headquarters. In 1996, NASA transferred management responsibility for TDRSS to the
   Space Operations Management Office at the Johnson Space Center (Johnson). In 2001,
   NASA dissolved the Space Operations Management Office, and responsibility for
   TDRSS was transferred to the Office of Space Flight (later renamed the Space Operations
   Mission Directorate) at NASA Headquarters. Within the Space Operations Mission
   Directorate, responsibility for TDRSS falls under the Space Communications and
   Navigation (SCaN) Office. However, no personnel from offices with prior management
   responsibilities for TDRSS were working in the Program during our audit. Consequently,
   Program personnel did not possess the knowledge required to update the reimbursable
   rates and were unaware of the existence of the C.F.R. policy.




REPORT NO. IG-10-023                                                                                  13
                                                                                                    RESULTS


C.F.R. Provisions Do Not Accurately Reflect Current Procedures

     The regulations in the C.F.R. pertaining to TDRSS were originally published in 1983 and,
     apart from minor revisions in 1991 and the revision to the rates in 1997, have not been
     updated. Thus, the provision is outdated and does not reflect current TDRSS operating
     procedures. For example, although the C.F.R. provides that payments be collected six
     months in advance of the service period, NASA does not require customers to remit funds
     that far in advance. Because the C.F.R. is “the codification of the general and permanent
     rules published in the Federal Register by the executive departments and agencies of the
     Federal Government,” NASA should update the document to reflect current procedures.
     SCaN Office personnel said they plan to update Part 1215 to make it consistent with
     current TDRSS operating procedures.

     With regard to collecting reimbursable payments, we found that NASA was collecting
     payments in advance, as required by C.F.R. §§ 1215.115, but not the required 6 months in
     advance. The C.F.R. divides the calendar year into two service periods – January through
     June and July through December – and states that the estimated cost of service for
     January through June is due the previous July 1 and will be billed 60 days prior to the
     payment due date. In other words, the customer must pay NASA 6 months in advance of
     the service period. NASA is not following the criterion requiring the 6-month advance
     payments because, according to Project management personnel, customers do not want to
     commit funds so far in advance of actual needs.

     In addition, C.F.R. §§ 1215.101 states that memorandums of agreement concerning
     TDRSS use with its customers must be signed by the Associate Administrator for Space
     Operations. However, the position of the Associate Administrator for Space Operations
     has not existed since 1996, and at the time of our audit the Deputy Associate
     Administrator for the Space Operations Mission Directorate signs the memorandums of
     agreement. Nevertheless, we found that Goddard personnel signed the memorandums of
     agreement for TDRSS nonclassified customers. 22 In addition, C.F.R. §§ 1215.113 states
     that slew time (that is, the time it takes to reposition a satellite for the next project) will
     be charged to the customer. However, Goddard’s support contractor (Honeywell)
     personnel did not charge nonclassified customers for slew time (although they did charge
     classified users) because the satellite scheduling system does not automatically account
     for it and they determined that the time of up to 2 minutes was negligible. Additionally,
     the Chief, Networks Integration Management Office, stated that they simply forgot to
     account for slew time, but will begin to account for it as required by the C.F.R.

     SCaN Office personnel said they plan to update C.F.R. Part 1215 to make it consistent
     with current TDRSS operating procedures.




     22
          Nonclassified customers include both commercial and noncommercial customers.



14                                                                                       REPORT NO. IG-10-023
RESULTS


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. We recommended that the Associate Administrator for the Space
Operations Mission Directorate direct the SCaN Deputy Associate Administrator to annually
update TDRSS reimbursable rates so that they reflect current operating costs.

   Management’s Response. The Associate Administrator for the Space Operations
   Mission Directorate concurred, stating that the SCaN Program is updating the algorithm
   used to calculate reimbursable rates to ensure it produces reasonable rates, and that the
   required timing for updating the rates is appropriate. In addition, beginning with
   FY 2012, the SCaN Program will notify customers of rate changes on an annual basis.
   Management expects to complete its review of the algorithm by December 1, 2010.
   Although NASA’s formal response did not provide a specific completion date
   (Fall 2010), the SCaN Office’s Director for Network Services stated in a subsequent
   e-mail that these actions would be completed by December 1, 2010.

   Evaluation of Management’s Response. Management’s planned action is responsive.
   The recommendation is resolved and will be closed after we verify completion of the
   corrective action.

Recommendation 2. We recommended that the Associate Administrator for the
Space Operations Mission Directorate direct the SCaN Deputy Associate
Administrator to revise 14 C.F.R. Part 1215, “Tracking and Data Relay Satellite
System (TDRSS),” to reflect current operating procedures and rates.

   Management’s Response. The Associate Administrator for the Space Operations
   Mission Directorate concurred, stating that the SCaN Program is reviewing the Code of
   Federal Regulations to determine if the regulation is still needed and, if so, will take steps
   to ensure it reflects the current TDRSS operating procedures and rates. Management
   expects to complete the proposed action by December 1, 2010. Although NASA’s formal
   response did not provide a specific completion date (Fall 2010), the SCaN Office’s
   Director for Network Services stated in a subsequent e-mail that these actions would be
   completed by December 1, 2010.

   Evaluation of Management’s Response. Management’s planned action is responsive.
   The recommendation is resolved and will be closed after we verify completion of the
   corrective action.




REPORT NO. IG-10-023                                                                                15
                                                                                                        RESULTS



                                                    LACK OF INTERNAL CONTROLS LED
                                                         TO COLLECTION ISSUES AND
                                                                  LOSS OF REVENUE

                The lack of internal controls in Goddard’s Networks Integration Management Office
                led to a loss of revenue for NASA: financial responsibilities were neglected; and
                reimbursements were not tracked, billed, or received during an employee’s extended
                absence. This occurred because the Networks Integration Management Office did
                not have a contingency plan for continuity of operations or a standardized method of
                calculating reimbursements for classified and nonclassified projects. As a result,
                NASA did not receive reimbursements from nonclassified customers in a timely
                manner and did not recoup all payments owed for provision of TDRSS services.


Reimbursables Were Not Handled Consistently

     The Networks Integration Management Office at Goddard provides mission services to
     spacecraft and science customers. The Office provides spacecraft tracking and data
     acquisition options, assistance with mission-unique communications requirements, and
     assistance in requirements definition. The Office is also responsible for collecting
     TDRSS user fees from nonclassified users. Goddard’s Space Network Project is
     responsible for collecting user fees from classified users.

     Accounts for classified and nonclassified TDRSS customers are handled by two different
     financial managers who maintain separate customer records and have different operating
     procedures. The financial manager for nonclassified accounts bills customers a
     percentage to cover costs for Center Management and Operations (CM&O) 23 based on
     the estimated cost of the launch. After the launch is completed and the number of
     minutes used is determined, this financial manager adds a percentage for award fees to
     the cost of the minutes used. However, the financial manager for classified accounts said
     she considers CM&O costs and award fees to be included in the per-minute charge and
     therefore does not add this amount to her customers’ charges.

     As discussed above, the reimbursable rates have not been recalculated for several years
     and NASA does not know what factors were included in the formula used to calculate
     those rates, we were unable to determine whether either of the financial managers was
     correctly charging customers. The former NASA employee hired to recalculate the usage
     rates stated that all maintenance and operations costs associated with TDRSS are included
     in the per-minute rate, and costs for award fees and CM&O are part of those rates.
     However, he could not provide documentation to substantiate that statement. In any

     23
          The Center Management and Operations budget consolidates the overhead costs from the nine NASA
          field centers, not including the Jet Propulsion Laboratory. CM&O was previously known as General and
          Administrative costs.



16                                                                                       REPORT NO. IG-10-023
RESULTS

   event, until this issue is resolved NASA may be overcharging some customers and
   undercharging others.


Lack of a Contingency Plan and Inaccurate Advice Led to
  Loss of Revenue

   Required duties were not performed during a 6-month period, from March 28, 2008,
   through September 14, 2008, when the nonclassified reimbursables resource analyst went
   on extended leave and no one was brought in to replace her. Specifically, funds were not
   obligated to TDRSS reimbursable projects for minutes used and, in some cases,
   government customers were not billed in a timely manner and therefore the funds that
   would have been used to pay for particular service periods were no longer available from
   a budgetary perspective. For example, approximately $31,500 had to be returned to the
   Missile Defense Agency because NASA did not bill the Agency before the available
   funds for that service period expired.

   During the 6-month vacancy, NASA did not bill a customer who owed $585,000 for
   services rendered. Later, the customer claimed insolvency prior to NASA receiving
   payment. The customer launched its rocket in January 2008. However, NASA did not
   bill the customer until June 9, 2009. The company filed for bankruptcy on June 22, 2009
   and NASA ended up recovering only $200,000 from the company.

   The current financial manager returned nonexpiring funds, or no-year-authority funds, to
   six customers because of miscommunication with the Regional Finance Office. The
   financial manager was told by Regional Finance Office staff that the funds at issue
   expired after 2 years. However, when we requested documentation that the funds had
   expired, we received information showing they had not. Therefore, we concluded that
   approximately $27,200 in nonexpiring funds had been inappropriately returned to
   customers. Upon further review, documentation maintained by the Regional Finance
   Office showed that the period of performance for the six customers had expired and on
   that basis the funds were rightfully returned to the customers. However, according to the
   financial manager, the information about the period of performance expiring had not been
   communicated to her; if it had been, she could have been taken steps to extend the period
   of performance and avoid returning the customers’ funds.

   The Network Integration Management Office informed us that they do not plan to pursue
   collection of the approximately $58,700 in returned funds (the $31,500 to the Missile
   Defense Agency plus $27,200) because the charges were not billed in a timely manner
   and because of the costs involved in collecting the payments.




REPORT NO. IG-10-023                                                                           17
                                                                                      RESULTS


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 3. We recommended that the Chief, Networks Integration Management
Office, establish and document internal control procedures to ensure a continuity of
operations and timely billing of TDRSS service fees.

     Management’s Response. The Associate Administrator for Space Operations concurred,
     stating that the Networks Integration Management Office has hired additional staff, is
     updating and examining each reimbursable account monthly during a Business Status
     Review, and will document the step-by-step process for handling the reimbursable
     accounts so that written guidance will be available to employees. Management expects to
     complete the proposed action by November 15, 2010.

     Evaluation of Management’s Response. Management’s planned action is responsive.
     The recommendation is resolved and will be closed after we verify completion of the
     corrective action.

Recommendation 4. We recommended that the Chief, Networks Integration Management
Office, establish a standardized method of calculating reimbursements for classified and
nonclassified projects.

     Management’s Response. The Associate Administrator for Space Operations concurred,
     stating that a common process is being developed and will be employed within the
     Goddard Exploration and Space Communications Projects Division for both classified
     and nonclassified projects. Management expects to complete the proposed action by
     October 25, 2010.

     Evaluation of Management’s Response. Management’s planned action is responsive.
     The recommendation is resolved and will be closed after we verify completion of the
     corrective action.




18                                                                       REPORT NO. IG-10-023
APPENDIXES



                                                                          APPENDIX A


Scope and Methodology

   We performed this audit from July 2009 through August 2010 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   We reviewed planning, financial, and scheduling documents and conducted interviews
   with Project officials to determine that the TDRS K and L Project Plan was effectively
   executed and that the Project is on schedule and meets technical requirements. We
   reviewed the TDRS K Program Commitment Agreement, which provides the TDRS K
   and L launch delivery dates. We found that the dates were in agreement with the
   contractual launch dates provided in the Boeing TDRS K contract, dated December 28,
   2007. Additionally, we reviewed monthly and quarterly status reports from the TDRS K
   Project Office and Boeing and found they were in agreement with the Program
   Commitment Agreement.

   We also reviewed the preliminary design review and compared it to the TDRS K Project
   documents, NASA Procedural Requirements, and standard business practices to
   determine that the TDRS K Project implemented effective risk and earned value
   management. In addition, we reviewed Boeing Satellite Systems and Honeywell
   Solutions Technology Inc. contracts and requirements for compliance with U.S. laws,
   regulations, and NASA Procedural Requirements and regulations to determine that there
   was effective administration of the TDRS K design and development and support service
   contracts. We compared the results to the most current weekly, monthly, and quarterly
   status reports for internal controls.

   During our review, we concluded that 14 C.F.R. Part 1215 did not reflect current
   operating procedures for determining how reimbursables are charged, billed, or received.
   We also reviewed lists of nonclassified reimbursable customers and reimbursable rates
   charged for minutes used for the period January 1, 2008, through August 7, 2009. For
   classified missions, we reviewed the same documents for fiscal years 2008 and 2009. For
   internal controls related to the continuity of operations, we reviewed cost estimates,
   invoices, and financial reports from the Networks Integration Management Office.

   Finally, to determine whether all nonmanagerial Project staff were able to report
   identified risks, we interviewed nonmanagerial Project staff. As of June 2009, the TDRS
   Project Office comprised 72 positions: 18 managers, 2 support staff, and
   52 nonmanagerial staff. Of the 52 nonmanagerial staff, we interviewed 38, 3 positions


REPORT NO. IG-10-023                                                                           19
                                                                                                 APPENDIX A

     were vacant, 6 of the staff were no longer with the Project, and the remaining 5 members
     were unavailable during the interview process.

     Use of Computer-Processed Data. We used computer-processed data to determine our
     reimbursable mission universe. We found discrepancies in the computer-processed data
     concerning the consistency of the data provided. We brought the discrepancies to the
     Networks Integration Management Office’s attention and worked closely with Agency
     officials to determine the process by which the Networks Integration Management Office
     records, tracks, and updates launch missions to the extent the launch missions records are
     complete and accurate. The results showed that databases key to our review were not
     consistent and the data was incomplete. Therefore, we determined the data was not
     sufficiently reliable. However, by comparing the data received, we were able to identify a
     usable universe.


Review of Internal Controls

     We reviewed NASA policies, procedures, and internal controls governing the award and
     administration of the Boeing and Honeywell contracts for compliance with Federal and
     NASA acquisition regulations. We obtained and reviewed the Procurement Management
     Survey Report dated March 23 to April 3, 2009, performed by the Headquarters
     Procurement Office. We found that the NASA Headquarters Office of Procurement
     reviewed the TDRS K Project using NASA Policy Directive (NPD) 5000.2A, “Uniform
     Methodology for Determination of Small Business Subcontracting Goals,” dated June 14,
     2000. We reviewed NASA policies, procedures, and internal controls related to the
     TDRSS contracts and no issues were found. However, we found that the Code of Federal
     Regulations related to the management of TDRSS operations does not reflect current
     operating procedures and that there is no continuity of operations plan in effect for
     collection of TDRSS reimbursables.


Prior Coverage

     During the last 5 years, neither NASA nor the Government Accountability Office (GAO)
     has issued a report of particular relevance to the subject of this report. However, we
     found NASA issued two older reports, 1996 and 1997, concerning the recording and
     usage of revenues generated by the C-band agreement. 24 In addition, GAO issued four
     older reports. A report issued in 1991 concerned scheduling the usage of TDRSS.
     Another report issued in 1990 assessed ground stations and terminal use. A third report
     issued in 1989 involved the closing of ground stations, stating NASA had not performed
     a risk assessment of closing certain ground stations. The fourth report, issued in 1980,

     24
          In 1990, NASA entered into the C-band agreement with Columbia Communications Corporation
          (Columbia) for Columbia to use excess C-band capacity from TDRS-4 and TDRS-5. Columbia, in turn,
          leased the excess C-band capacity to commercial customers for international telecommunications
          purposes.



20                                                                                    REPORT NO. IG-10-023
APPENDIX A


   concerned displacement of TDRSS workers due to ground station closures. Access
   unrestricted reports over the Internet at http://oig.nasa.gov/audits/reports/FY10 (NASA)
   and http://www.gao.gov (GAO).

   National Aeronautics and Space Administration

   “Commercial Use of NASA’s Tracking and Data Relay Satellite System (TDRSS)”
   (IG-97-026, June 24 1997)

   “Final Rapid Action Report Recording of Revenues Generated by the Commercial Use of
   NASA’s Tracking and Data Relay Satellite System (TDRSS)” (IG-97-010, December 17,
   1996)

   Government Accountability Office

   “Space Communications: Better Understanding of Scheduling System Limitations
   Needed” (GAO/IMTEC-91-48, September 17, 1991)

   “Space Communications: Performance of NASA’s White Sands Ground Terminal”
   (GAO/IMTEC-90-56, May 29, 1990)

   “Space Operations: NASA’s Communications Support for Earth Orbiting Spacecraft”
   (GAO/IMTEC-89-41, April 7, 1989)

   “Staffing Implications of Tracking and Data Relay Satellite System and Remote Sensing
   Activities” (PSAD-80-47, May 28, 1980)




REPORT NO. IG-10-023                                                                          21
                                                                                        APPENDIX B



                                                PROTESTS OF SUPPORT SERVICE
                                                           CONTRACT AWARD

     Honeywell Technologies Solutions, Inc. holds the current contract for the continuous
     operations and monitoring of NASA’s space communications network. Following a
     competitive procurement, NASA selected ITT Corporation (ITT) to continue the
     operations and monitoring services.

     Following contract award to ITT on October 10, 2008, five protests were submitted
     concerning NASA’s evaluation of the bidders’ past performance information. Honeywell
     submitted three separate protests to GAO and one to NASA, and ITT submitted one
     protest to NASA.

     On October 20, 2008, Honeywell submitted the first protest to GAO claiming NASA’s
     evaluation of the proposals and subsequent source selection decision was improper. On
     January 27, 2009, GAO ordered that NASA reevaluate ITT’s past performance. After
     reevaluation, NASA awarded the contract to ITT on April 7, 2009.

     Following this award, Honeywell filed a second protest with GAO on April 24, 2009,
     claiming NASA irrationally evaluated the past performance of ITT and its proposed team
     members, and as a result, NASA’s best value decision was unsupportable. GAO held a
     hearing on June 25, 2009, to determine whether NASA’s reevaluation of ITT’s past
     performance was proper. On June 30, 2009, NASA notified GAO of its intent to take
     corrective action in response to the second protest by reevaluating updated past
     performance information obtained from each bidder, Internet resources, and direct contact
     with references. After the corrective action was completed, NASA again selected ITT for
     the Space Communications Network Services contract.

     On July 13 and 20, 2009 respectively, Honeywell and ITT submitted Agency-level
     protests regarding NASA’s planned corrective action. On August 11, 2009, the NASA
     contracting officer denied Honeywell’s protest. The ITT protest was also denied on
     August 11, 2009 as untimely.

     On August 21, 2009, Honeywell submitted its third protest to GAO claiming NASA’s
     corrective action was improper because it was limited to the issue of past performance.
     GAO denied this protest on November 23, 2009, stating the agency decision to limit
     corrective action to the area of past performance is unobjectionable where it is sufficient
     to remedy the procurement impropriety at issue.

     On July 14, 2010, the U.S. House of Representative’s Committee on Science and
     Technology notified the NASA Administrator about their concerns that the Space
     Communications Network Services competition managed by Goddard Space Flight
     Center’s Procurement Office was not conducted in a fair and open manner. In addition,
     they questioned the integrity of NASA’s contract management and contracting processes


22                                                                            REPORT NO. IG-10-023
APPENDIX B

   as well as the conduct of Agency and Goddard legal offices. On July 20, 2010,
   Honeywell submitted their fourth protest to GAO on NASA’s third selection of ITT as
   the successful offeror.

   NASA hopes to award the contract prior to the early October 2010 expiration of the
   current contract.




REPORT NO. IG-10-023                                                                     23
                       APPENDIX C



     MANAGEMENT COMMENTS




24            REPORT NO. IG-10-023
APPENDIX C




REPORT NO. IG-10-023   25
                                                                               APPENDIX D



                                                          REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator, Space Operations Mission Directorate
     Director, Goddard Space Flight Center
     Assistant Administrator for Procurement
     Project Manager, TDRS
     Project Manager, Space Network Project

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




26                                                                   REPORT NO. IG-10-023
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Diane Choma, Project Manager
   Bill Falter, Auditor, Team Leader
   Theresa Becker, Procurement Analyst
   Gina Davenport-Brazeau, Auditor
   Cindy Stein, Aerospace Technologist




REPORT NO. IG-10-023                                                         27
                                                                                SEPTEMBER 21, 2010




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY10/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
